          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


 Evaluation   Report




        EPA’s Plan to Reduce Agency
        Greenhouse Gas Emissions
        Is on Track to Meet Executive
        Order 13514 Requirements
        Report No. 11-P-0209

        April 12, 2011
Report Contributors: 	                             Dan Carroll
                                                   Jerri Dorsey
                                                   Natalie Hanson
                                                   Jeffrey Harris
                                                   Kalpana Ramakrishnan
                                                   Olga Stein




Abbreviations

EO            Executive Order
EPA           U.S. Environmental Protection Agency
GHG           Greenhouse gas
OIG           Office of Inspector General


Cover photos:	 Three types of GHG reduction projects, from left: solar photovoltaic panels,
               a plug-in hybrid electric vehicle, and a geothermal plant.
               (U.S. Department of Energy photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-P-0209
                                                                                                       April 12, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review 	            EPA’s Plan to Reduce Agency
We performed this review to
                                    Greenhouse Gas Emissions Is on Track to
evaluate the U.S. 	                 Meet Executive Order 13514 Requirements
Environmental Protection
Agency’s (EPA’s) progress            What We Found
toward meeting the
requirements of Executive           We found that EPA has completed its plan to reduce GHG emissions as
Order 13514, “Federal               required by Executive Order 13514. However, projected GHG reductions are
Leadership in Environmental,        contingent on the full funding and implementation of the plan’s energy
Energy, and Economic                efficiency projects.
Performance.” Specifically, we
sought to determine EPA’s           EPA established a 25 percent GHG emission reduction target by fiscal year
status in planning and              2020. To reach this target, the Agency’s primary strategy is to reduce its
measuring reductions of its         facility energy intensity by 3 percent annually through fiscal year 2020. EPA’s
greenhouse gas (GHG)                Strategic Sustainability Performance Plan outlines specific projects that the
emissions at Agency facilities.     Agency will undertake to reduce GHG emissions. Funding for some of the
                                    projects in the plan has not been authorized or appropriated, and delays or
Background                          deficits in plan funding may adversely impact the Agency’s ability to meet its
                                    GHG reduction goals.
On October 5, 2009, President
Obama signed Executive Order         What We Recommend
13514 to establish an integrated
strategy toward sustainability in   We recommend that EPA’s annual update of its Strategic Sustainability
the federal government. The         Performance Plan report describe changes to GHG emission reductions and/or
executive order introduced new      reduction goals based on actual funding and status of projects, and make
GHG emissions management            adjustments to the overall reduction goal as needed.
requirements. It also prioritized
the reduction of GHG
                                    The Agency found the report to be factually accurate and concurred with the
emissions for all federal
                                    findings and recommendation.
agencies and required them to
measure, report, and reduce
their GHG emissions.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110412-11-P-0209.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                          April 12, 2011

MEMORANDUM

SUBJECT:	 EPA’s Plan to Reduce Agency Greenhouse Gas Emissions
          Is on Track to Meet Executive Order 13514 Requirements
          Report No. 11-P-0209


FROM:	         Arthur A Elkins, Jr.
               Inspector General

TO:	           Craig Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on EPA’s plans to reduce the Agency’s greenhouse gas emissions conducted
by the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA).
This report contains findings that describe the problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $133,497.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
202-566-0832 or najjum.wade@epa.gov, or Jeffrey Harris at 202-566-0831 or
harris.jeffrey@epa.gov.
EPA’s Plan to Reduce Agency Greenhouse Gas Emissions                                                                         11-P-0209
Is on Track to Meet Executive Order 13514 Requirements




                                      Table of Contents 

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                2


   Results of Review .......................................................................................................         3


           GHG Reduction Planning Milestones Met ............................................................                        3

           Implementation of GHG Reduction Plan Contingent on Funding .........................                                      4


   Recommendation ........................................................................................................           4


   Agency Comments and OIG Evaluation………………………………………………...                                                                           5


   Status of Recommendations and Potential Monetary Benefits..............................                                           6




Appendices
   A       Agency Response ..............................................................................................            7


   B       Distribution .........................................................................................................    8

Purpose

                The purpose of this review was to evaluate the U.S. Environmental Protection
                Agency’s (EPA’s) progress toward meeting the requirements of Executive Order
                (EO) 13514, “Federal Leadership in Environmental, Energy, and Economic
                Performance.” Specifically, we sought to determine EPA’s status in planning and
                measuring greenhouse gas (GHG) reductions at Agency facilities.

Background

                On October 5, 2009, President Obama signed EO 13514 to establish an integrated
                strategy toward sustainability in the federal government. EO 13514 enhances
                requirements from several existing federal statuary and EO requirements related
                to energy and environment, including EO 134231 and the Energy Independence
                and Security Act of 2007. The EO requires all federal agencies to make
                improvements in several areas, including GHG emissions.

                Gases that trap heat in the atmosphere are often called GHGs. GHGs targeted in
                EO 13514 include carbon dioxide, methane, nitrous oxide, hydrofluorocarbons,
                perfluorocarbons, and sulfur hexafluoride. Some GHGs, such as carbon dioxide,
                occur naturally and are emitted into the atmosphere through natural processes and
                human activities. Other GHGs are created and emitted solely through human
                activities. Many, but not all, human-activity sources of GHG emissions are
                expected to rise in the future. The increase in GHG emissions may be mitigated
                through the use of newer, cleaner technologies and other measures. Additionally,
                everyday choices about such things as commuting, housing, electricity use, and
                recycling can influence the amount of GHGs emitted.

                EO 13514 also introduces new GHG emissions management requirements and
                prioritizes the reduction of GHG emissions for all federal agencies. The EO
                requires agencies to measure, report, and reduce their GHG emissions. All federal
                agencies, including EPA, must establish and report a GHG inventory to the Chair
                of the Council on Environmental Quality and the Director of the Office of
                Management and Budget. This inventory encompasses Scope 1, 2, and 3 GHG
                emissions, based on the source of emissions, as shown in table 1.




1
 EO 13423, “Strengthening Federal Environmental, Energy, and Transportation Management,” was signed by
President Bush on January 24, 2007.


11-P-0209                                                                                                1
                    Table 1: Three scopes of GHG emissions
                     Scope 1       Direct GHG emissions from sources owned or controlled by a federal
                                   agency
                     Scope 2       Indirect GHG emissions resulting from the generation of electricity, heat,
                                   or steam purchased by a federal agency
                     Scope 3       GHG emissions from sources not owned or directly controlled by a
                                   federal agency but related to Agency activities, such as vendor supply
                                   chains, delivery services, and employee travel and commuting
                    Source: Review of Council of Environmental Quality Guidance.

                    Each agency chose a percentage reduction target for agency-wide reductions for
                    Scope 1 and 2 GHG emissions in absolute terms by fiscal year 2020.2 On
                    January 29, 2010, President Obama announced a cumulative target (compiled
                    from the individual agency targets) for the federal government to reduce its GHG
                    emissions 28 percent by 2020.

                    All federal agencies must develop and submit an annual Strategic Sustainability
                    Performance Plan that prioritizes agency actions to achieve the goals of the EO.
                    For EPA, the Assistant Administrator for Administration and Resources
                    Management is the Senior Sustainability Officer for EO 13514. EPA will inform
                    senior managers, including assistant administrators, regional administrators, and
                    laboratory directors, of their responsibilities in implementing the plan.

                    The U.S. Department of Energy’s Federal Energy Management Program is
                    responsible for reporting the actual GHG reduction data for the federal
                    government. EPA is responsible for reporting Scope 1 and 2 emissions on 34 of
                    its facilities across the United States. The first submission of GHG emissions data
                    was due to the Council of Environmental Quality and Office of Management and
                    Budget in January 2011.

Scope and Methodology

                    We conducted this evaluation in accordance with generally accepted government
                    auditing standards. Those standards require that we plan and perform the
                    evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and conclusions
                    based upon our objectives. We performed our evaluation from September 2010
                    through February 2011.

                    To complete our review, we met with staff from EPA’s Office of Administration
                    and Resources Management, the U.S. Department of Energy, and the U.S.
                    General Services Administration, in Washington, DC. We analyzed EPA planning
                    and implementation documents. We reviewed applicable laws and regulations, as

2
    Relative to a fiscal year 2008 baseline of the agency’s Scope 1 and 2 GHG emissions.


11-P-0209                                                                                                       2
                   well as guidance documents. Specifically, we reviewed EO 13514, EO 13423, the
                   Energy Independence and Security Act of 2007, the Energy Policy Act of 2005,
                   Office of Management and Budget and Council on Environmental Quality
                   Technical Guidance, EPA Energy Management and Conservation Program
                   Reports, and EPA’s Strategic Sustainability Performance Plan. We also reviewed
                   EPA’s plan for reporting GHG reduction measurement. We focused our review on
                   Scope 1 and 2 GHG emissions because they represent the majority of GHG
                   emissions.3 Our analysis also included a review of the GHG measurement
                   guidance.

Results of Review
                   EPA completed its plan to reduce GHG emissions as required by EO 13514.
                   However, projected GHG reductions are contingent on the full funding and
                   implementation of the plan’s energy efficiency projects. EPA established a
                   25 percent GHG emission reduction target for Scope 1 and Scope 2 emissions by
                   fiscal year 2020. To reach this target, the Agency’s primary strategy is to reduce
                   its facility energy intensity by 3 percent annually through fiscal year 2020. EPA’s
                   Strategic Sustainability Performance Plan outlines specific projects that the
                   Agency will undertake to reduce GHG emissions. Funding for some of the
                   projects in the plan has not been authorized or appropriated, and delays or deficits
                   in plan funding may adversely impact the Agency’s ability to meet its GHG
                   reduction goals.

                   GHG Reduction Planning Milestones Met

                   We found that EPA completed its plan for GHG emission reductions as required
                   by the EO. On January 4, 2010, the Agency submitted its Scope 1 and 2 emissions
                   reduction targets. The Agency’s goal is to reduce its combined Scope 1 and 2
                   GHG emissions by 25 percent by 2020, from a 2008 established GHG baseline.
                   The Agency completed its Strategic Sustainability Performance Plan as required
                   by the EO within the established timeframe, and the plan was approved by the
                   Council on Environmental Quality. The plan outlines specific projects that EPA
                   will undertake to reduce GHG emissions.

                   The Office of Administration and Resources Management considered several
                   options to reduce emissions. These options were reviewed in its Energy
                   Management and Conservation Program, and included energy conservation, green
                   power transitioning to offsets, and on-site renewable energy. After review of costs
                   and options, the office chose to focus on energy conservation. The Agency
                   decided to focus efforts and resources on maximizing energy conservation by
                   reducing energy use and other conservation options to achieve the 3 percent
                   reductions annually. Some of EPA’s energy conservation strategies include:



3
    Scope 1 and 2 emissions represented approximately 68 percent of EPA’s 2008 GHG emissions.


11-P-0209                                                                                             3
               	 Mandatory Commissioning: Since fiscal year 2003, EPA has required
                  mandatory commissioning on all projects that include laboratory
                  mechanical systems. Commissioning is a process to check the proper
                  installation, function, and operation of building systems.

               	 Infrastructure Replacement Projects and Mechanical System
                  Upgrades: EPA is pursuing major mechanical system replacement
                  projects as well as operating efficiency projects at all of its facilities.

               	 Energy Assessments and Re-Commissioning: EPA conducts energy
                  assessments, often at high-energy-intensity and large laboratories, and
                  then conducts re-commissioning at each EPA facility every 4 years as
                  required under Energy Independence and Security Act.

            Implementation of GHG Reduction Plan Contingent on Funding

            While the Agency has developed a plan to reduce GHG emissions and thereby
            meet the requirements of the EO, the planned GHG reductions are contingent
            upon availability of funding. Funding for implementation of EPA’s plan to meet
            the EO requirements generally comes from the EPA’s Building and Facilities
            budget. The Office of Administration and Resources Management estimates a
            $20 million shortfall for planned projects for the period FY 2010 through
            FY 2015. If funding is not received, EPA will have to revise its dates or goals for
            planned GHG emission reductions.

            Section 8 in the EO states that the Strategic Sustainability Performance Plan will
            be updated annually. This annual update offers the Agency an opportunity to
            revise planned dates and goals based on actual funding received and project
            status. Office of Administration and Resources Management staff stated that,
            based on future funding challenges, planned reductions may need to be moved out
            to future years; otherwise, adjustments to reduction percentages may be
            necessary.

Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   1.	 Make adjustments to the GHG emission reductions and/or reduction
                       goals based on actual funding and status of projects, and revise EPA’s
                       overall reduction goal if needed during the annual update of the
                       Strategic Sustainability Performance Plan.




11-P-0209                                                                                         4
Agency Comments and OIG Evaluation

            The Agency found the report to be factually accurate and concurred with the
            findings and recommendation. In the annual update of the Strategic Sustainability
            Performance Plan report, EPA agreed to describe changes to GHG emission
            reductions and/or reduction goals based upon actual funding and status of
            projects, and make adjustments to the overall reduction goal as needed.




11-P-0209                                                                                   5
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1        Action Official             Date      Amount      Amount

     1        4     Make adjustments to the GHG emission reductions         O      Assistant Administrator for
                    and/or reduction goals based on actual funding and                Administration and
                    status of projects, and revise EPA’s overall                    Resources Management
                    reduction goal if needed during the annual update
                    of the Strategic Sustainability Performance Plan.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0209                                                                                                                                            6
                                                                                  Appendix A

                                Agency Response
                                        March 17, 2011



MEMORANDUM

SUBJECT:      Response to Draft Report:
              EPA’s Plans to Reduce Agency Greenhouse Gas Emissions
              Is on Track to Meet Executive Order 13514 Requirements
              Project No. OPE-FY10-0025

FROM:         Craig E. Hooks /S/
              Assistant Administrator

TO:           Jeffrey Harris
              Director for Program Evaluation, Cross-Media Issues
              Office of Inspector General

       OARM appreciates the opportunity to provide this response to the above report, dated
February 25, 2011. We find the report to be factually accurate and concur with the proposed
findings and recommendation. In the annual update of the Strategic Sustainability Performance
Plan report, EPA will describe changes to greenhouse gas emission reductions and/or reduction
goals based upon actual funding and status of projects, and make adjustments to the overall
reduction goal as needed.

       We thank the OIG team for their thoughtful and comprehensive approach to development
of the report. Any additional questions regarding our response should be directed to Renee Page,
Director of the Office of Administration, at (202) 564-8400 or page.renee@epa.gov.

cc: Renee Page




11-P-0209                                                                                       7
                                                                                Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0209                                                                                8
